No.

Supreme Court, U.S.
FILED

tV

OCT - 6 2021
OFFICE OF THE CLERK

ln®jie

Supreme Court of tfje fHmteti States!
HEMANT BHIMNATHWALA,
Petitioner,
v.
JUDICIARY OF THE STATE OF NEW JERSEY,
FAMILY DIVISION; LOPA S. SHAH; HONORA O’BRIEN
KILGALLEN; JOANNE MCLAUGHLIN; LISA P.
THORNTON; TERESA A. KONDRUP-COYLE; TONYA
HOPSON; STUART RABNER; REBEKAH HEILMAN,
Respondents.

On Petition For Writ Of Certiorari
To The United States Court Of Appeals
For The Third Circuit

PETITION FOR A WRIT OF CERTIORARI

Hemant BHIMNATHWALA
I
Pro Se
/
360 E South Water Street, Apt. 1218
Chicago, IL 60601
(202) 695-3850

1

QUESTIONS PRESENTED
1.

Does the Fourteenth Amendment require a pre­
sumption of equal, joint custody of children in
child custody proceedings? Is this presumption a
logical induction from Obergefell v. Hodges, 576
U.S. 644 (2015), which held that fundamental
right to marry may not be denied the under the
Due Process and Equal Protection clauses of the
Fourteenth Amendment to same-sex couples?

2.

(a) Do disparate-impact claims apply to State
Judiciaries, and specifically Family Courts, that
receive federal assistance for collecting child
support payments as enacted in S.1002 - Child
Support Recovery Act of 1992 and implemented
in 45 CFR§ 305.31?

2.

(b) If such disparate-impact claims are cogniza­
ble, what are the standards and burdens of proof
that should apply?

3.

What would the Statute of Limitations if either
answer to either 1 or 2 above is affirmative?
Would the arguments in National Railroad Pas­
senger Corporation v. Morgan, 536 U.S. 101
(2002) apply?

11

PARTIES TO THE PROCEEDING
This petition seeks Supreme Court review of cases
in Appeals and District Court describing gender bias
in custody proceedings in family courts in the State of
New Jersey and in most other states.
Petitioner is Hemant G. Bhimnathwala and was a
Petitioner- Appellant in Hemant G. Bhimnathwala v.
New Jersey State Judiciary, et al. in the Third Circuit
Court of Appeals.
Petitioner was Plaintiff, pro se, in the District
Court and Appellant, pro se, in the Court of Appeals.
Respondents are defendants in the District Court
and are Lopa Shah (“Shah”) and “State Defendants” the State of New Jersey Judiciary (the “New Jersey
Judiciary”); the Honorable Stuart Rabner, Chief Jus­
tice of the New Jersey Supreme Court; the Honorable
Lisa P. Thornton, A.J.S.C.; the Honorable Teresa Ann
Kondrup-Coyle, J.S.C.; the Honorable Honora O’Brien
Kilgallen, J.S.C.; Tonya Hopson; Rebekah Heilman;
and Joanne McLaughlin.
Respondents above voluntarily abstained from the
proceedings in the Court of Appeals.

Ill

LIST OF ALL PROCEEDINGS
U.S. Court of Appeals for the Third Circuit, No.
20-3526, Hemant G. Bhimnathwala u. New Jersey
State Judiciary, et al., Sur Petition for Rehearing de­
nied July 19, 2021.
U.S. Court of Appeals for the Third Circuit, No.
20-3526, Hemant G. Bhimnathwala v. New Jersey
State Judiciary, et al., judgment entered June 15,2021
U.S. District Court for the District of New Jer­
sey, D.C. Civil Action No. 3:19-cv-21389, Hemant G.
Bhimnathwala v. New Jersey State Judiciary, et al.,
judgment entered December 9, 2020.

IV

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED..................................

1

PARTIES TO THE PROCEEDING.......................

11

LIST OF ALL PROCEEDINGS............................

in

TABLE OF CONTENTS........................................

IV

TABLE OF AUTHORITIES...................................

VI

PETITION FOR WRIT OF CERTIORARI...........

1

OPINIONS BELOW................................................

1

JURISDICTION......................................................

2

CONSTITUTIONAL AND STATUTORY PROVI­
SIONS INVOLVED..............................................

2

STATEMENT OF THE CASE................................

3

REASONS FOR GRANTING THE PETITION....

24

I. A United States court of appeals has
(wrongly) decided important questions of
Constitution and federal law that have not
been, but should be, settled by this Court....
II. A United States court of appeals has de­
cided important federal questions in a way
that conflicts with relevant decisions of
this Court.......................................................
III. Entrenched, pervasive, systemic and un­
constitutional gender discrimination against
fathers in almost all states must end. It is
the credibility of the nation’s judicial sys­
tem that is on trial......................................
CONCLUSION

25

27

32
33

V

TABLE OF CONTENTS - Continued
Page
APPENDIX
United States Court of Appeals for the Third
Circuit, Opinion, Filed Jun. 15, 2021............. App. 1
United States District Court for the District of
New Jersey, Opinion, Filed Dec. 9, 2020......... App. 8
United States Court of Appeals for the Third
Circuit, Order Denying Petition for Rehear­
ing, Filed Jul. 19, 2021
App. 39

VI

TABLE OF AUTHORITIES
Page
Cases
Family Civil Liberties Union v. New Jersey
Department of Child, No. 20-1455 (3d Cir.
2020)......................................................................... 16, 24
L.R. v. School Dist. ofPhiladelphia et. al., No. 144640 (3d Cir. Sept. 6, 2016).................................

26

Loving v. Virginia, 388 U.S. 1 (1967).....................

27

McCleskey v. Kemp, 481 U.S. 279 (1987)..............

20

National Railroad Passenger Corporation v.
Morgan, 536 U.S. 101 (2002)..................
22,23
Obergefell v. Hodges, 576 U.S. 644 (2015)

passim

Texas Dept of Housing and Community Affairs
v. Inclusive Communities Project, Inc., No. 131371, 576 U.S.
(2015)
passim
Constitutional Provisions
U.S. Const, amend. XIV, § 1

2

Statutes
42 U.S.C. § 2000e-2......

20

45 C.F.R. § 305.31.........

3,6,15

KRS § 403.270...............

14

78 Stat. 241....................

2

S.1002 - Child Support
Recovery Act of 1992,

3,16,19, 29

Vll

TABLE OF AUTHORITIES - Continued
Page
Other Authorities
H.R.5 - 117th Congress (2021-2022):
Equality Act.....................................

17

1
PETITION FOR WRIT OF CERTIORARI
I respectfully petition the Court to grant a writ of
certiorari to the United States Court of Appeals for the
Third Circuit in the case Hemant Bhimnathwala v.
New Jersey State Judiciary, et al., No. 20-3526. This pe­
tition is permitted by Supreme Court Rule 12.4 and
warranted because of the identity of legal issues and
interests in these cases.
This Court’s intervention is urgently needed to
correct the disparity between Obergefell v. Hodges and
Statutes in New Jersey (and in most other states) Fam­
ily Courts concerning custody of minor children, and to
address questions of exceptional importance, particu­
larly to tens of millions of fathers and their chil­
dren nationwide.

OPINIONS BELOW
In the United States Court of Appeals for the
Third Circuit, the petition for rehearing by the panel
and the Court en banc, was denied on July 19, 2021
(App. 39). The opinion of the United States Court of
Appeals for the Third Circuit was issued on June 15,
2021. This opinion is unpublished and is reproduced in
App. 1. The Third Circuit affirmed the decision of the
United States District Court for the District of New
Jersey issued on December 9, 2020, document number
30 in the District Court’s docketed matter number
3:19-cv-21389 (N.J.). District Court opinion is un­
published and is reproduced in App. 8.

2

JURISDICTION
The District Court issued its judgment on Decem­
ber 9, 2020. The court of appeals issued its judgment
on June 15, 2021. The petition for rehearing by the
panel and the Court en banc was denied on July 19,2021.
This Court’s jurisdiction rests on 28 U.S.C. § 1254(1).

CONSTITUTIONAL AND
STATUTORY PROVISIONS INVOLVED
U.S. Const, amend. XIV, § 1
No State shall . . . deprive any person of
life, liberty, or property, without due process of
law; nor deny to any person within its juris­
diction the equal protection of the laws.
The Civil Rights Act of 1964; 88-352 (78 Stat. 241)
To enforce the constitutional right to vote,
to confer jurisdiction upon the district courts
of the United States to provide injunctive re­
lief against discrimination in public accom­
modations, to authorize the Attorney General
to institute suits to protect constitutional
rights in public facilities and public educa­
tion, to extend the Commission on Civil
Rights, to prevent discrimination in fed­
erally assisted programs, to establish a
Commission on Equal Employment Oppor­
tunity, and for other purposes.

3

S.1002 - 102nd Congress: Child Support Recov­
ery Act of 1992; 18 U.S.C. § 228
45 C.F.R. § 305.31 - Amount of incentive payment.
(a) The incentive payment for a State
for a fiscal year is . . . during the fiscal year,
that is: 2(Current Assistance collections +
Former Assistance collections) + all other
collections.

STATEMENT OF THE CASE
The case is about a fundamental right to equally
participate in a parent-child relationship without dis­
crimination by State due to gender.
Men are treated as the male equivalent of “hand­
maids” for contributing their sperm, thrown crumbs of
parenting time to pay lip service to parental rights, but
forced to pay child support. While The Handmaid’s
Tale1 is fiction, this is reality. Not only do the fa­
thers lose their constitutional rights to parenting time,
but adding insult to injury, they are forced to pay via
child support obligations. Even men who defend our
freedom are not spared. Worse, some men are treated
as criminals - they are often jailed for inability to meet
1 The Handmaid’s Tale is a dystopian novel by Canadian au­
thor Margaret Atwood, published in 1985. “Handmaids” are forci­
bly assigned to produce children for the commanders - the ruling
class of men. The novel explores themes of subjugated women in
a patriarchal society. The book has been adapted into a 1990 film,
a 2000 opera, a 2017 television series, and other media (wikipedia.org).

4
the obligations. I have never heard of instances where
women are subjected to the same fate.
Does this gender discrimination shock your con­
science?
Defendants:
The State of New Jersey Judiciary (the “New Jer­
sey Judiciary”); the Honorable Stuart Rabner, Chief
Justice of the New Jersey Supreme Court; the Honor­
able Lisa P. Thornton, A.J.S.C.; the Honorable Teresa
Ann Kondrup-Coyle, J.S.C.; the Honorable Honora
O’Brien Kilgallen, J.S.C.; Tonya Hopson; Rebekah Heil­
man; and Joanne McLaughlin (collectively, the “State
Defendants);” and Lopa Shah (“Shah”), Plaintiff’s for­
mer wife.
Petitioner:
I am the Petitioner, filing this petition pro se. I was
the defendant in divorce proceedings in the State of
New Jersey. I am the Plaintiff in the civil action in Dis­
trict Court in New Jersey; I was the Appellant in the
Third Circuit Court of Appeals; and Petitioner for re­
hearing by the panel and the Court en banc.
District Court Proceedings:
I filed a “Complaint” against the Defendants in
December 2019 in the District Count in New Jersey
alleging violation of my equal rights to parenting
under U.S. Const, amend. XTV, § 1 - Civil Action No.

5
3:19-cv-21389. Defendant Shah filed for divorce from
the Plaintiff in New Jersey, county of Monmouth, with
case FM-13-1686-06 in April 2006. Defendant Shah
was Plaintiff in FM-13-1686-06 and the Plaintiff in
this case was the defendant in FM-13-1686-06 the Su­
perior Court, Family Vicinage, in Freehold, New Jersey.
The Divorce Order was finalized on February 27, 2008
some two years after filing.
In spite of my efforts and some $50,000 plus in le­
gal expenses, I received alternate weekends as paren­
tal time as defined as “Standard Custody.”2 This is not
equal and violates Fourteenth Amendment rights of
fathers.
Individual State Defendants (App. 8) were involved
with the proceedings in New Jersey’s Family Courts at
some points in time in aiding and abetting in the vio­
lation of the Fourteenth Amendment rights. Ex-wife
was an accomplice and denied parenting time with two
sons over the many years since separation and divorce.
State Defendants raised procedural issues but
did not address Questions 1, 2(a) and 2(b) raised in
this petition nor did they dispute my assertion in the
District Court that I was discriminated on the basis
of gender. State Defendants also claimed that statute
of limitation limits my claims to two years, even
though they denied violating any constitutional rights.
Question 3 pertains to statute of limitation when
2 Alternate weekends or Standard Custody gives fathers al­
ternate weekends, half of major holidays and one or two weeks a
year of vacation time.

6
discrimination is pervasive, institutional, and ongoing
for decades, and is held unconstitutional. Defendant
Shah claimed, contrary to facts, that the divorce pro­
ceedings in family court treated me equally without
any discrimination by gender. While conceding that
equal treatment is a right, she nonetheless exploited
lack of equal treatment.
District Court ruling in regards to Question 1 er­
roneously dismissed the basic pillar in my Complaint
in a footnote (footnote # 3), App. 12:
Specifically, Plaintiff contends that the
Supreme Court’s decision in Obergefell v.
Hodges, 576 U.S. 644 (2015), which held that
same-sex couples may not be denied the funda­
mental right to marry under the Due Process
and Equal Protection clauses of the Four­
teenth Amendment, also applies to child cus­
tody and child support. Thus, Plaintiff asserts,
without any legal basis, that the Fourteenth
Amendment requires a presumption of equal,
joint custody of children in child custody pro­
ceedings.
District Court ruling dismissed Question 2(a) by
merely proclaiming that the requirement arising from
The Civil Rights Act of 1964 did not apply to family
courts (App. 33).
Provisions of 45 C.F.R. § 305.31 - Amount of incen­
tive payment also raise the issue of conflict of interest
in judicial decisions affecting child support. State De­
fendants, District Court and the Third Circuit did not
address this issue.

7

State Defendants also claimed (absolute) judicial
immunity (App. 30) and that they were improperly
served (App. 17). These raise additional constitutional
questions on violations of Duty of Oath, about judicial
procedures and on judicial immunity. Petitioner feels
that these questions are radioactive and is not
asking this court to address these questions in
this petition. I would leave it to the Presidential
Commission on Supreme Court and the political pro­
cess to consider these issues.
Appeals Court Proceedings:
I asked the Third Circuit Court of Appeals to re­
view all aspects the District Court ruling. I also added
much more detail and explanation in support of on
Question 1 above. Appeals court upheld the ruling by
the District Court. I would add more on the Appeals
Court opinion later in this petition.
Presumption3 of equal parenting time:
In Obergefell v. Hodges, 576 U.S. 644 (2015) (Obergefell), this court held that States shall not discrimi­
nate on the basis of sex and the institution of marriage
could not be withheld to a couple of same sex. The court
reached this conclusion entirely by applying Four­
teenth Amendment rights to the institution of mar­
riage within the construct of a family. The ruling states
3 For clarification, I use the word with the same legal mean­
ing as in “presumption of innocence.”

8

that the right to marry is derived from the right to
form a family. Family is not merely a married couple,
but includes children, grandchildren, parents, grand­
parents, siblings, cousins etc. Figure 1 below depicts
the strength of the relationships with inner circles rep­
resenting stronger relationships.
Figure 1: Relative strengths of family relationships

A: Children & Parents; B: Siblings; C: Spouse;
D: Uncles, Aunts, Nieces/nephews, Cousins

No one disputes that a parent-child relationship is
the strongest of all relationships. Procreation is at the
heart of survival of all species, including humans.
There is dignity in the bond between a parent and
child. The relationship between a parent and a child is
more fundamental than a spousal relationship. The
latter exists for the benefit of the first. Children are at

9
the focus of a family. Both men and women go to great
lengths to have child(ren); it gives so many people a
purpose in life. A parent-child relationship is enduring
- one rarely sees permanent cessation of this relation­
ship. On the other hand, about half the marriages end
in a divorce; many are bitter breaks with former part­
ners not to communicate ever again.
Someone who has lost a parent understands the
loss and pain of losing one. I have, twice. I gather the
pain in loss of a child is even greater. I pray I do not
have to see such a day. Likewise the joy in the birth of
a child is like no other. Clearly, parent-child(ren) rela­
tionship is unique and strong, stronger than a marital
bond. Is it this Court’s position that such feelings for
children/parents are reserved only for women, not
men?
An example of discrimination in circle A would be
if a state, in the absence of a will, disparately distrib­
uted estates primarily to male heirs. This was common
in patrilineal societies of the past. There is no doubt
that this would violate the Fourteenth Amendment.
One can argue about relative strength of a rela­
tionship among married couples or siblings (i.e., circle
B or C), but there is no doubt that that a parent-child
relationship is the strongest (i.e., that A is the inner­
most circle).
Quoting the Declaration of Independence - “We
hold these truths to be self-evident, that all men are
created equal, that they are endowed by their Creator
with certain unalienable Rights, that among these are

10
Life, Liberty and the pursuit of Happiness.” For fa­
thers, the happiness comes from being integral parent
in raising their offspring and building memories with
their offspring that they can share all through their
lives. Procreation is at the heart of survival of all spe­
cies, including humans. I can truthfully say that the
standard custody arrangement denied me these pleas­
ures, merely because my ex-wife had other plans. I hold
biases in the family court, which also flow down to how
divorce attorneys practice their trade, responsible for
the denial of this happiness.
Parents have children even though it costs money
to raise them to adults. There is an emotional, life, hap­
piness part to having children and economic value or
utility must exceed the cost; else there would be no rea­
son to have children. There is an obligation on one side
and there is a reward. The standard custody arrange­
ment unconstitutionally discriminates in allocating
rewards and obligations differently.
Obergefell allows same-sex partners to get mar­
ried. I am certain some of them will lead to divorces, if
there aren’t such cases already. Obviously gender can’t
be a basis for determination on how to divide parenting
time. This would mean that same-sex couple would en­
joy presumption of equal parenting time. What then le­
gitimizes discrimination on parenting time for hetero­
sexual couples? Family court procedures in not recog­
nizing explicit rebuttable presumption of joint legal
custody and equal physical custody for temporary and
final court orders have no ethical basis and violate the
Constitution.

11
Application of Fourteenth Amendment to Circle C
also applies to the Circle A. State cannot discriminate
in a parent-child relationship based on sex. In fact, if
you make simple substitutions in the text of majority
opinion of Obergefell - “Parent-Child relationship”
for “marital relationship”, “having children” for “get­
ting married”, etc. the majority opinion in Obergefell
doesn’t read rubbish; it makes a lot of sense. All argu­
ments presented in Obergefell petition and amici cu­
riae in support would also apply. In addition, there is
no opposition based on religion.
This would imply that in separations and divorces,
both parents have presumption of equal parenting
time. Almost all states define standard custody as al­
ternate weekends for fathers. This is not equal and vi­
olates Fourteenth Amendment. If this is permissible,
then States can deny custody to, for example, same-sex
male couples. That would be in contradiction to the ra­
tionale behind Obergefell.
If states can discriminate on the basis of sex in A,
then there is no rationale to bar it in C, i.e., there would
be no basis for Obergefell. The decision would just hang
without a foundation - it would be like a law for speed­
ing violation for 65mph-75mph, but not for speeds
above 75mph! Allowing discrimination based on sex in
custody and parenting time (guardianship) should be
a basis to overturn Obergefell.
In many countries the primary guardianship rests
with fathers, for example in India. The Hindu Minority
and Guardianship Act, 1956 (INDIA) makes the father

12
the natural guardian of minor children unless the chil­
dren are below five, in which case they can be with
their mother.
Standard custody is discriminatory to women too.
With women as the primary caregiver in standard cus­
tody, women are disproportionately handicapped in
workplace with caregiving duties. In addition, there
are numerous studies to show that children raised in
fatherless families are more prone to violence.
If the Court concludes that women should get pri­
mary custody as in a standard custody arrangement,
the only rationale is that mothers make a better par­
ent. That argument is on a slippery slope and permits
all sorts of gender discrimination. Does this mean that
states could mandate that women stay home while
men go to work, making Title VII inconsistent with
this argument? One often hears some women argue
that women have special rights in custody proceedings
because they carried the babies in pregnancy. Four­
teenth amendment confers so such right; in fact, it spe­
cifically calls out that there shall be no discrimination
based on sex. This also is in conflict with intentions of
Title VII - which was enacted specifically to address
glass ceiling for women in workplace.
Many employers now offer paternity leave. In fact,
New Jersey recently mandated paternity leave on par
with maternity leave on childbirth and adoption.
While congress did pass Defense of Marriage Act,
later overturned by this court, it has passed no such
laws against father-child(ren) relationships. There are

r

13
no religious objections to gender roles in parent-child
relationships, unlike vociferous objections to Obergefell. Every congressional action has treated parentchild relationship in gender neutral manner. This
would imply that in separations and divorces, both
parents should have presumption of equal parenting
time.
If the court does not accept the arguments above,
I would urge this court to explain why of all the rela­
tionships in a family structure, does marriage merit
Fourteenth Amendment protection, but no other?
What is so special about having sex that it outweighs
human role in rearing children?
Unequal parenting is parent-shaming. Fathers
overwhelmingly are deemed unfit for parenting their
own child and yet they often end up being step-fathers
to other children (via second marriage that is recog­
nized as a fundamental right), while their own chil­
dren have to contend with a stepfather, albeit a
different person. This makes absolutely no sense and
is completely stupid. How does this reflect on sound­
ness of judicial decisions? This is all driven by in­
creasing child support amounts and for mothers as a
“control tool”. In aggregate, statistics demonstrate that
these are not impartial decisions and violate the Con­
stitution.
Equal physical custody may appear to present
practical challenges on how one divides the responsi­
bility/pleasure by two. One can be creative - it does
not have to be split week, or alternate weeks. It can

14
be one-child for each parent, for example. Or it could
be structured as alternate years or primary/elementary/
middle/high school years, etc.
In 2018, Kentucky was the first state to enact an
explicit rebuttable presumption of joint legal custody
and equal physical custody for temporary and final
court orders, H.B. 528, modifying KRS § 403.270. That
means that equally shared decision-making and joint
time with a child is assumed (unless there is sufficient
evidence supporting the need for a different arrange­
ment). After one year, court reports showed divorce fil­
ings went down by more than 10 percent.
What may be driving this inequity in custodial
proceedings? This is further described in the following
sections.
Incentive payments driving discrimination
While New Jersey has not offered statistics in cus­
todial proceedings, many other states have provided
the data4 and it points to blatant discrimination.
Money may be driving this unconstitutional be­
havior by the family courts nationwide. It is best to
explain with examples. We will consider two cases, in
each case we will assume the cost of supporting chil­
dren is $1000 per month and two sub-cases: equal
parenting times or father gets alternate weekends
4 “

Does Gender Still Matter? Child Custody Bias in the Illi­
nois Family Court System” Master’s Thesis, Derek K. Ronnfeldt,
Illinois State University, 2016.

15
plus 5 holidays (i.e. standard schedule) (father’s share
of nights is 15.6% and mother’s share of nights is
84.4%).
(i) Mother’s and Father’s income is identical:
there is no child support for equal parenting times and
Father pays Child support of (844-156)/2= $344 in
standard schedule.
(ii) Father’s income is 2x mother’s income: When
parenting times are equal, Father pays child support
to mother of (666.67-333.33)/2 = $167.67. However, in
standard schedule, Father would pay child support of
((666.67-333.33) x 15.6% + 666.67 x (84.4%-15.6%))
or about $524. Reducing father’s parenting time in­
creased child support amount over 3 times.
It is the structure of the incentive payments to
states under 45 C.F.R. § 305.31 that creates this per­
version. States5 receive about $0.5 Billion in incentive
payments in proportion to child support payments col­
lected. This amount is fixed for a fiscal year. When one
state invented an illicit way to jack-up their collec­
tions, it received disproportionately larger incentive
5 Besides incentive payments, states may charge other fees
and interest. Gov. Newsome of California recently vetoed two bills
calling the proposal to “pass through” more child support money
to families, SB337, would “lead to an estimated revenue loss of
millions of dollars outside the budget process,”; and the other bill,
AB1092, which would have eliminated interest on child support
payments, Newsom wrote, would “have a General Fund impact of
tens of millions of dollars annually, thus it should be considered
as part of the budget process.” These monies are almost exclu­
sively paid by men. (Calmatters.org, Oct 15, 2019)

1

16
payments. The state not using such methods received
smaller amount of a fixed pie (which is prorated for in­
flation). As a result of competition, all states follow this
method. (Smaller incentive payment would result in a
smaller budget for staff and cause some layoffs.)
The disparate impact described above is largely a
consequence of intentional discrimination in a twostep process. First, the family courts, in cahoots with
lawyers representing both mothers and fathers, prin­
cipally award primary or sole custody (and parenting
time) to mothers. Second, they apply child support ob­
ligations on fathers with threat of incarceration under
S.1002 - Child Support Recovery Act of 1992. Family
courts get away with this astounding discrimination of
fundamental rights as it is difficult to prove discrimi­
nation at an individual level (see for example - Family
Civil Liberties Union v. New Jersey Department of
Child, No. 20-1455 (3d Cir. 2020.) The discrimination
is very obvious when looking at aggregate statistics.
Family court judges are not neutral arbiters;
they are driven to maximize child support payments.
There is a conflict of interest when Judges and the
family courts are seeking to maximize child support
payments. The S.1002 - Child Support Recovery Act
of 1992 was meant to incentivize state to collect child
support from parents that do not want to parent.
State defendants have bastardized this to prevent fa­
thers from parenting and then assess child support

17
payments. Given economic incentives,6 actions of the
New Jersey Judiciary in custodial matters are not im­
partial.
Disparate impact and The Civil Rights Act of 1964
Preamble to the Act says “To enforce the consti­
tutional right. . . . , to prevent discrimination in
federally assisted programs, . . . and for other
purposes” (emphasis added).
Various titles under the Act barred specific acts of
discrimination addressing major issues of the time.
Some of the major issues at the time were disparity in
educational and employment opportunities for women.
Discriminatory acts addressed in various titles were
already unconstitutional under fourteenth Amend­
ment. More recently, Congress has passed the Bill
H.R.5 - 117th Congress (2021-2022): Equality Act and
finds in 2(a)(10) Discrimination by State and local gov­
ernments on the basis of sexual orientation
or gender identity in employment, housing,
and public accommodations, and in pro­
grams and activities receiving Federal
financial assistance, violates the Equal
Protection Clause of the Fourteenth Amend­
ment to the Constitution of the United
States” (emphasis added). In many circum­
stances, such discrimination also violates
6 I urge the court to invite economics experts to provide ami­
cus briefs on incentives driven behavior.

18
other constitutional rights such as those of
liberty and privacy under the due process
clause of the Fourteenth Amendment.
This reinforces my claim that Congress has always
required since the passage of Civil Right Laws that re­
cipients of federal funds shall not discriminate on the
basis of sex, among other attributes.
More specifically, The Civil Rights Act of 1964
spelled out a statistical measure for systemic discrim­
ination which otherwise would be difficult to prove in
individual cases. More importantly, when the statisti­
cal measures point to systemic discrimination, the Act
shifts the burden of proof to the institution, the de­
fendant.
Consider an extreme case where mothers always
get full custody and 100% of parenting time for chil­
dren. You would agree that this would violate fathers’
rights under Equal Protection Clause and Due Process
Clause of the Fourteenth Amendment. If in a single in­
stance a father was to get 50% percent custody/parent­
ing time, would that address the violation of Fathers’
rights? I am sure the answer is no. What if 5% of the
divorces resulted in 50% parenting time for fathers? I
believe that would still constitute discrimination.
Statistics do matter. I would like to draw your at­
tention to another US Supreme Court decision - Texas
Dept, of Housing and Community Affairs v. Inclusive
Communities Project, Inc., No. 13-1371, 576 U.S. (Inclu­
sive Communities or ICP) - which held that disparate
impact claims are cognizable [under the Fair Housing

f
\

19
Act]. Justice Kennedy, in delivering majority opinion,
began his analysis by reviewing the historic develop­
ment of disparate impact claims in federal law and
concluded that Congress specifically intended to in­
clude disparate impact liability in a series of amend­
ments to the Fair Housing Act that were enacted in the
year 1988.
States, and specifically family courts, receive fed­
eral assistance for collecting child support payments
as enacted in S.1002 - Child Support Recovery Act of
1992, popularly referred to as “deadbeat dads law”.
While the public discourse focused on deadbeat dads
(for example, Deadbeat Dads & Welfare Queens: How
Metaphor Shapes Poverty Law in Boston College Jour­
nal of Law & Social Justice, Volume 34, Issue 2), the
law specifically used gender neutral term “parent”
clearly signifying that it did not intend to discriminate
based on gender of the parent. This law was passed in
1992 few years after Fair Housing Act and its amend­
ments and three decades after The Civil Rights Act of
1964, clearly intending to incorporate disparate impact
provision. Preamble of The Civil Rights Act of 1964
clearly includes all programs that receive federal assis­
tance.
Child Support, more often than not, gets deducted
before any employee gets his/her paycheck. Child Sup­
port thus has impact on employment compensation.
If there is discrimination in Child Support determi­
nation, there is discrimination in employment. This
impacts employment not just at the New Jersey Court­
house, but impacts all fathers with child support

20

obligations. Also, Child Support payments are
made to parent with primary custody. This is
form of employment. In my particular case, child
support obligations included payments to a nanny. Ti­
tle VII, as amended, 42 U.S.C. § 2000e-2, bars discrim­
ination based on sex in employment matters.
In providing for disparate impact to root out sys­
temic discrimination in public institutions in enacting
the 1964 Civil Right Laws, the congress provided a
metric and a method for public institutions to use for
self-correction for any discrimination. Even as The
Civil Rights Act of 1964 does not explicitly address
rules in custody proceedings, questions remain • Would New Jersey Judiciary provide statistics
on child support and parental custody by sex? Or is it
hiding blatant systemic discrimination?
• If not disparate impact, what yardsticks does
New Jersey Judiciary (for that matter any other Judi­
ciary in US, a State or Federal) apply to determine if
there is systemic discrimination with respect to
protected traits (e.g., sex) in its collective rulings?
With gender bias tilting the scales, where is jus­
tice in the Judiciary?
In another example, a news article reports that
McCleskey u. Kemp, 481 U.S. 279 (1987) has not aged
well. In 1991, Justice Lewis F. Powell Jr., the author of
the majority opinion in McCleskey v. Kemp, was asked
after his retirement whether there was any vote he
would like to change. “Yes,” he told his biographer.
“McCleskey v. Kemp.” (NY Times, Aug. 3, 2020). In the

r

I
21
matter before this court, the number of cases is huge over 30 thousand dissolution cases in New Jersey each
year. Statistical confidence with such a large number
of cases is close to 100%, proving that there is gender
discrimination in Family Courts.
The State Defendants also did not address this is­
sue. The opinion of the District Court merely stated
that disparate impact principle did not apply to cus­
tody proceedings.
Statute of Limitations:
Once establishing a fundamental right to parent­
ing and that facts presented above REQUIRE an ex­
plicit rebuttable presumption ofjoint legal custody and
equal physical custody for temporary and final court
orders in custody proceedings is established, I would
note that this discrimination has been ongoing for over
decades. Given entrenched, pervasive, systemic dis­
crimination, District Court’s and Appeal Court’s opin­
ion on statute of limitation is wrong.
Two year statute encompasses the Material Set­
tlement Agreement (MSA) and every part of it. The
MSA is not an event at one point in time, rather it
stretches from May 2006 when the underlying marital
case (Docket No. FM-13-1686-06D) was filed until 2019
when this case was filed in District Court. This is no
different than in a hypothetical case where one is erro­
neously imprisoned in 2006 and released in 2019. This
person would be due compensation for the whole pe­
riod of imprisonment, rather than just most recent two

I
22
years. The statute of limitation just limits when a case
can be filed, but does not prescribe how the damages
are calculated. See National Railroad Passenger Cor­
poration v. Morgan, 536 U.S. 101 (2002). Complaint
claims a systemic, entrenched discrimination going
back to decades. Therefore, all incidences in the Com­
plaint, beginning with filing of the marital case
(Docket No. FM-13-1686-06D), are valid and eligible.
While Morgan considered this in matters of employ­
ment, which is not a fundamental right, the matter
under consideration here applies to parent-child rela­
tionship, which is a fundamental human and constitu­
tional right.
Time is money and money grows with time. I can
employ monies recovered from unconstitutional child
support payments to rebuild relationship with my
children. Strangely child support payment also in­
cluded payments for a nanny - while I lost parenting
time, I was paying for a nanny to take care of the chil­
dren, which included making meals and doing laundry
for my ex.
Recent proceedings began about three years
back when I petitioned NJ Family Court to pre­
serve my thanksgiving break with my children7. The
7 I filed a motion under FM-13-1686-06 on Aug. 23, 2018 to
preserve my visitation with my children for the 2018 thanksgiv­
ing break. In the proceedings, I pleaded with the court not to dis­
criminate against me because of my gender. Family Court filed a
ruling with a six weeks inexplicable delay on November 7, 2018
that I received by mail a week before thanksgiving. After letters
to various State Defendants through March 2019,1 filed a motion

23

discrimination is so ingrained and so pervasive that
this has not reached resolution in three years. The
divorce agreement is dated February 27, 2008 when
the financial crisis of 2008 was well underway. I was
practicing in the financial service industry then and
could not have managed a long litigation while find­
ing my footing during the crisis. I had to make a
choice - litigate or run to make a living. It is the
same choice that slaves faced in slavery. It is the
same choice that Morgan faced in National Railroad
Passenger Corporation v. Morgan.
The discrimination is deeply entrenched and has
been happening for several decades, and yet no one has
presented arguments presented here. This involves an
estimate of about 2000 family court judges and tens of
thousands of family law lawyers. Many of these law­
yers market and fashion themselves as father’s rights
lawyers. Yet, no lawyer has made these arguments be­
fore! It is very clear that the unconstitutional discrim­
ination drives the gravy train for the judiciary, the
judges and the lawyers involved. This unconstitutional
gender discrimination is happening at an enormous
scale.
I did have legal representation but what did that
get me? Given the financial crisis and given that my
children were young, there is no way I could have lit­
igated this in 2006-2007 on my own. In addition,
most court opinions were not easily searchable and
with District Count on December 12, 2019 within statute of limi­
tation of two years (App. 11).

24
available on the Internet. My pro se filings are made
possible more recently, thanks to Google and availabil­
ity of more content on the internet. I am filing pro se
as no lawyer (I even asked on Lawyers.com) was will­
ing to sue the judiciary.
There are numerous examples when men have lit­
igated custody decision for years and have resulted in
them getting broke. See Family Civil Liberties Union
v. New Jersey Department of Child, No. 20-1455,3d Cir.
where a father has been litigating since Feb. 2011 and
the matter is still pending resolution. Moreover, my ar­
guments are made simpler by Obergefell and Inclusive
Communities.

REASONS FOR GRANTING THE PETITION
Both the New Jersey District Court and the Third
Circuit Court of Appeals have really punted on im­
portant constitutional questions, perhaps because the
proceedings implicate judiciaries. State Defendants
did not address issues relating to key Fourteenth
Amendment Rights and Civil Rights and instead
falsely claimed absolute judicial immunity. Circuit
Court deflected the issue in a footnote (App. 12) by
merely stating that there is no legal basis, as if laws
are completely devoid of any logic. Similarly, the Ap­
peals Court called perfectly logical arguments “crea­
tive extrapolations (App. 5).”

25
I.

A United States court of appeals (wrongly)
has decided important questions of Consti­
tution and federal law that have not been,
but should be, settled by this Court.

Men are treated as the male equivalent of “hand­
maids” for contributing their sperm, thrown crumbs
of parenting time to pay lip service to parental rights,
but forced to pay child support. While The Handmaid’s
Tale is a fiction, this is reality. Worse, fathers are
treated as criminals (The hostility towards fathers in
the New Jersey Family Court mirrors what Maria Bartiromo described as her experience as a new reporter
on the New York Stock Exchange trading floor). Not
only do the fathers lose their constitutional rights to
parenting time, but adding insult to injury, they are
forced to pay via child support obligations. Many are
often jailed for inability to meet the obligations. I have
never heard of instances where women are subjected
to the same fate.
The scale is unprecedented. While there are less
than 750 thousand same sex-marriages in U.S., cur­
rently there are over 15 million children impacted
by child support payments, involving about 10
million mothers and 10 million fathers. This does
not include even larger cases since 1992 where the
children have grown past the age of 18 years. The de­
partment of Health and Human Services reports that
the child-support payments are over $25 Billion
each year and the incentive payments to states total
about $0.5 Billion a year.

26

This involves an estimate of about 2000 family
court judges and tens of thousands of family law law­
yers. The gender discrimination against fathers is hap­
pening at an enormous scale. This is particularly
noteworthy as this is the centenary (plus one) year
of women’s suffrage and passing of the 19th Amend­
ment. Gender discrimination by family courts is un­
lawful. If the discrimination is driven by financial
incentives as described above, then the implications
are worse. Considering the scale, this would constitute
and complete failure of institutions as contemplated by
our founding fathers.
What is the rationale for being so hostile and un­
fair to fathers, besides being “we can, therefore we do.”
It is driven by perverse economic incentive. It is inten­
tional discrimination. May I ask the court what larger
purpose does this discrimination serve for the society?
Is it surprising that a very large fraction of citizens do
NOT feel that the government is working for them?
If this does not shock the conscience, what would?
It is impossible to notice injustice in an individual case,
but in a collective sense this is shocking. I have other
words to describe this, but would refrain in a court pro­
ceeding. State Defendants’ action is “arbitrary in the
constitutional sense” and it is “so egregious, so out­
rageous, that it may fairly be said to shock the
contemporary conscience.” See L.R. v. School Dist. of
Philadelphia, et al., No. 14-4640 (3d Cir. Sept. 6, 2016).
The matter before the court impacts significantly
higher fraction of population than involved in Loving

27
v. Virginia, 388 U.S. 1 (1967), Obergefe.il and Roe u.
Wade, 410 U.S. 113 (1973).8 In Loving and Obergefell,
while the people impacted were denied rights, they
were not being intentionally harmed. In the case be­
fore this court, impacted population is denied funda­
mental human and constitutional rights and more
importantly they are monetarily and psychologically
harmed. If the court is tempted to duck by labeling this
case moot (which it is not), I would note that Roe was
heard long after Roe’s baby was born.
As The North Star proclaimed “Right is of no sex
. . . given the enormous impact of the proceedings
this Court should grant this petition.
II.

A United States court of appeals has de­
cided important federal questions in a way
that conflicts with relevant decisions of
this Court.

Third Circuit Court of Appeals dismissed Ques­
tions 1 and 2 as “creative extrapolations”, which they
are not. Even my son called the characterization “cre­
ative extrapolations” legitimately hilarious. The argu­
ments are truisms, based on logical inductions. Allow
me to explain the equivalence logic (i) Obergefell: Marriage is (P) a fundamental
right; GIVEN (Q) Constitution, including Bill of rights;
8 Ironically, while Roe is about women’s right to have a choice
in their reproductive life, cases where fathers have obtained equal
parenting rights have also depended on mothers opting for equal
parenting, sometimes against Judges pleadings.

28

Fourteenth Amendment, including Equal Protection
clause, Due Process Clause etc.; IMPLIES conclusion
(C) that it is unlawful to discriminate by sex, in (P)
marriage.
By replacing “marriage” with “parent-child rela­
tionship”, i.e., P & Q implies C, one obtains the cor­
ollary to Obergefell - discrimination in parent-child
relationships by sex/gender is unlawful. Also citing
Obergefell, has the same effect as incorporating all of
(Q) - all the background that is cited in Obergefell, in­
cluding Due Process Clause and the Equal Protection
Clause; and the arguments contained therein.
Even a simple substitution of “marriage” with
“parent-child relationship” in the text of Obergefell
makes so much sense. In fact, Obergefell states that it
is the parent-child relationship that yields to the fun­
damental right to marriage, implying the parent-child
relationship is more fundamental.
It is definitely not an extrapolation as noted in the
Figure 1 - it is inside the circle, not outside. Parentchild relationship is stronger than marital relation­
ship. The argument is a theorem or mathematical tau­
tology as taught in high-school algebra or geometry.
The case here is in the middle of the logical path
from Fourteenth Amendment to Obergefell, it is NOT
an extrapolation.
(ii) Texas Dept, of Hous. and Cmty. Affairs v. In­
clusive Communities Project, Inc.: (PI) Texas Dept, of
Housing receives federal funds under Fair Housing Act
(FHA), (P2) FHA was amended in 1988 after Civil

29
Rights Act of 1964; (Q)) - all the background that is
cited in Inclusive Communities', IMPLIES (C) Dispar­
ate Impact claims are cognizable under FHA.
By replacing Texas Dept, of Housing with New
Jersey Courts - Family Division (PI), FHA with S. 1002
- Child Support Recovery Act of 1992; i.e., PI, P2 and
Q implies C,; the corollary is that Disparate Impact
claims are cognizable under S.1002 - Child Support
Recovery Act of 1992. Also citing Inclusive Communi­
ties has the same effect as incorporating all of Q, and
the arguments contained therein.
It is creative only in the sense that of the millions
of people who have suffered (or taken advantage) of
these unconstitutional practices in family courts, only
I connected the dots and have filed a federal lawsuit
with these arguments.
The panel opinion brings up the concept of “best
interests of the child standard”. There is no logical con­
nection from “best interests of the child standard” to
“standard custody”. There was never any evidence of
this connection; it was made up to deny fathers equal
physical custody.
How would the “best interests of the child stand­
ard” be applied for same-sex couples with children on
getting divorced? If fathers are not good parents, how
is that gay couples, e.g., Pete & Chasten Buttigieg and
Anderson Cooper, can adopt children?
The evolving evidence indicates that “joint legal
custody and equal physical custody” is in the best

30

interest of the children. When the practices violate
Fourteenth Amendment and/or the Civil Rights laws,
the state or agency must provide evidence of a societal
imperative. It is no surprise that a couple of states '
have passed equal parenting laws recently.
The question before the court is simple - if my
treatment, and general practices, in the New Jersey
family court violate both the Fourteenth Amendment
and the Civil Rights laws. If the court disagrees, it
must submit a detailed analysis just as in dissents in
Obergefell and Inclusive Communities. In addition, the
court must show evidence of societal imperative.
The case before the court impacts a very broad
fraction of the society and is of utmost importance.
Statutes & policies in family courts in almost all states
and Appeal Court ruling clearly conflict with logical
consequences of Obergefell and Inclusive Communities.
Given several conflicting precedents and policies and
since the Appeals Court opinion has failed to under­
stand and apply basic concepts in logic, this Court
should accept this petition.
Appeals Court appeared to characterize my inabil­
ity to find a counsel as lack of merit. On the contrary,
the fact that no lawyer wants to take this case (against
New Jersey Judiciary) points to a potential flaw in code
of conduct for the Bar members and perhaps “closing
rank with the tribe” behavior by lawyers; it has noth­
ing to do with merits of the case.9 This may help the
9 Key difference with Obergefell appears to be the Defend­
ants attributes - they were Health Department and its officers in

31
tribe in the short term, but ultimately detrimental to
them and to the democracy. One lawyer preempted
by asking if I wanted to sue NJ Judiciary and then re­
plied that they are not in the business of suing Judici­
ary. This lawyer did not cite lack of merit as reason.
The defense offered by State Defendants cited proce­
dural matters and judicial immunity but was other­
wise silent on the key pillars on my case, indicating
their acceptance. I have talked to lawyers in social set­
tings and their response to the elevator pitch is that
yes, family court practices constitute discrimination by
gender and are unconstitutional. I have it in writing
(email) from one of the lawyers who had submitted an
amicus brief to this Court that family court practices
are unconstitutional.
District Court and the Appeals court have made
irrational and illogical arguments to defend unconsti­
tutional practices in family courts. Ruling rejected “in­
vitation to rewrite New Jersey law in the manner he
desires”. The court should note that Obergefell rewrote
codes on marriage in all of US. The panel directed Pe­
titioner to “avail himself of the political process, rather
than the judicial one”. First, the matter before the Ap­
peals Court was that of constitutionality of practices
and policies in family courts. Second, the panel ignored
the long tortured history of Obergefell that includes
ruling a federal law borne of a political process uncon­
stitutional. Judiciary has dug a hole for itself and is
Obergefell and they are State Judiciary and its officers in this
case.

32

now looking for “politicians” to rescue them? What a
disgrace!
III. Entrenched, pervasive, systemic and un­
constitutional
gender
discrimination
against fathers in almost all states must
end. It is the credibility of the nation’s
judicial system that is on trial.
Albert Einstein - “If I were to remain silent, I’d be
guilty of complicity.”
I am imploring this court to respect democracy “For the People, By the People” and halt the unconsti­
tutional practices as described herein. This case repre­
sents pervasive abuse of power - the power of judicial
immunity.
Slavery had to stop. Women got their right to vote.
The Holocaust had to end. The discrimination de­
scribed here has to end too. This court has the power
to do the right thing.
Allow me to state the obvious. The case here is not
about conservative or liberal judicial philosophies, or
religious preferences. The arguments presented are
irrefutable, and the conclusions logical just like a
mathematical equation or Pythagoras theorem. Lower
courts have obfuscated, deflected and buried their
heads in the sand. It is the credibility of the nation’s
judicial system that is on trial.

33

CONCLUSION
For the foregoing reasons, Petitioner respectfully
requests that the Court grant his petition for a writ of
certiorari.
I dedicate this petition to my late parents and my
children.
Respectfully submitted,
Hemant G Bhimnathwala
Pro se

App. 1
NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 20-3526
HEMANT G. BHIMNATHWALA,
Appellant
v.
JUDICIARY OF THE STATE OF NEW JERSEY,
FAMILY DIVISION; LOPA S. SHAH;
HONORA O’BRIEN KILGALLEN; JOANNE
MCLAUGHLIN; LISA P. THORNTON; TERESA A.
KONDRUP-COYLE; TONYA HOPSON;
STUART RABNER; REBEKAH HEILMAN
On Appeal from the United States District Court
for the District of New Jersey
(D.C. Civil Action No. 3:19-cv-21389)
District Judge: Honorable Freda L. Wolfson
Submitted Pursuant to Third Circuit LAR 34.1(a)
April 20, 2021
Before: GREENAWAY, Jr., KRAUSE, and BIBAS,
Circuit Judges
(Opinion filed: June 15, 2021)

